GR-90-98-032
U.S. DEPARTMENT OF JUSTICE
 
 Audit Report
 
OFFICE OF JUSTICE PROGRAMS
SERVICE, TRAINING, OFFICERS, AND PROSECUTION 
FORMULA GRANT TO THE
TORRES-MARTINEZ DESERT CAHUILLA INDIAN TRIBE
 
GRANT NO. 96-WI-NX-0050
 
GR-90-98-032
 
JUNE 1998
  
EXECUTIVE SUMMARY
 
The Office of the Inspector General, Audit Division, has completed an audit of a grant
number 96-WI-NX-0050, awarded by the U.S. Department of Justice (DOJ), Office of Justice
Programs (OJP) to the Torres-Martinez Desert Cahuilla Indian (Torres-Martinez Indians).
The Torres-Martinez Indians received a grant of $84,000 to develop strategies and
establish innovative approaches to enhance Indian victim services. The grant project
period was September 30, 1996 through September 30, 1998. The purpose of the Services,
Training, Officers and Prosecution (STOP) formula grants program is to develop or enhance
tribal structure in order to combat violent crimes committed against Indian women.
Our audit concentrated on, but was not limited to, the period September 30, 1996
through March 31, 1998. We tested the accuracy and reliability of the Torres-Martinez
Indians' accounting system, reviewed the general ledger, and evaluated the allowability,
allocability, and reasonableness of costs.
For purposes of review, we used the Office of Management and Budget (OMB) Circular
A-110, Grants and Agreements with Institutions of Higher Education and Other Nonprofit
Institutions; OMB Circular A-122, Cost Principles for Nonprofit Organizations;
the OJP Financial Guide for the administration of grants; and OJP Guideline Manual
M7100.1D, Financial and Administrative Guide for Grants.
In brief, our audit determined that the Torres-Martinez Indians violated the following
grant condition:

- The Torres-Martinez Indians charged unallowable costs totalling $2,515 to the grant
  for travel and for the purchase of equipment.
 
#####